No.

IN THE

Supreme Court of the United States
OCTOBER TERM 2020
_____________
JUSTIN MERTIS BARBER,
Petitioner,
v.
SECRTARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondent.
____________
PROOF OF SERVICE
I, WILLIAM M. KENT, do declare that on this date, October 19, 2020, pursuant
to Supreme Court Rules 29.3 and 29.4, I have served the attached PETITION FOR
WRIT OF CERTIORARI with attached Motion to Proceed In Forma Pauperis on
each party to the above proceeding, or that party's counsel, and on every other person
required to be served by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class

postage prepaid.
Justin Barber
V25914
Walton Correctional Institution
691 Institution Road
DeFuniak Springs, FL 32433
Office of the Attorney General
444 Seabreeze Blvd.
Fifth Floor
Daytona Beach, FL 32118

s/William Mallory Kent
AFFIANT

